Case: 19-2094

Document: 175

Page: 1

Date Filed: 03/02/2020

Case: 19-2094

Document: 175

Page: 2

Date Filed: 03/02/2020

NOT PRECEDENTIAL

CLD-116

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

OPINION*
PER CURIAM

No. 19-2094
Pro se appellant Leslie Willis appeals the District Court’s order dismissing her
LESLIE WILLIS,

amended complaint and denying leave to amend. Appellees have filed a motion to
Appellant
summarily affirm. For the reasons set forth below, we will grant the motion and

v.

summarily affirm the District Court’s judgment. See 3d Cir. L.A.R. 27.4; 3d Cir. I.O.P.
THE HON. LAWRENCE J. O’TOOLE, Individually, and in his Official Capacity as
Administrative Judge for the Court of Common Pleas of Allegheny County Orphans’
Court Division; TIMOTHY FINNERTY, Individually, and in his Official Capacity as
Assistant County Solicitor; MICHAEL MCGEEVER, Individually and in his Official
Capacity as Director of Allegheny County Dept, of Court Records Wills/Orphans’ Court
Division; MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually; JAMES
UZIEL, Individually and in his Official Capacity as Deputy Records for Allegheny
County Department of Real Estate; THE HON. JUDGE KATHLEEN A. DURKIN,
Individually, and in her Official Capacity for the Court of Common Pleas Orphans’ Court
Division

10.6.
This action arises out of probate proceedings involving the estate of Willis’s
deceased grandmother, Annie Pearl Willis, in the Orphan’s Court division of the
Allegheny County Court of Common Pleas. In 2014, Willis filed a motion seeking to
restrain the sale of real property belonging to the estate, which Judge Durkin denied, and
the property was sold. Willis filed dozens of other documents in the probate matter,

On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-18-CV-00290)
District Judge: Honorable David S. Cercone

including several requests to proceed in forma pauperis (IFP). Judge Durkin denied those
motions both in May 2014 and in April 2016. In April 2017, Judge Durkin issued a
decree of distribution.

Submitted on a Motion for Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
February 13, 2020

In 2018, Willis filed an action under 42 U.S.C. § 1983 in District Court. In her
operative second amended complaint, she alleged that defendants—Judge O’Toole (the

Before: JORDAN, KRAUSE and MATEY, Circuit Judges
(Opinion filed: March 2, 2020)

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
2

Case: 19-2094

Document: 175

Page: 3

Date Filed: 03/02/2020

Case: 19-2094

Document: 175

Page: 4

Date Filed: 03/02/2020

Administrative Judge of the Orphans Court), and three employees of that court’s clerk’s

U.S. 662, 678 (2009) (quoting Bell Atl. Coro, v. Twomblv. 550 U.S. 544, 570 (2007)).

office—violated her right to access the court and challenge the sale of property by failing

We review the District Court’s denial of Willis’s motion for leave to amend for abuse of

to docket documents that she attempted to file IFP. She alleged that this conduct began

discretion. See City of Cambridge Ret. Svs. v. Altisource Asset Mgmt. Corp.. 908 F.3d

in July or August 2016. The defendants filed motions to dismiss. A Magistrate Judge

872, 878 (3d Cir. 2018). We will summarily affirm the District Court’s decision if it

recommended that the District Court grant those motions on the grounds that the

determines that “no substantial question is presented” by the appeal. 3d Cir. L.A.R. 27.4.

defendants were immune, and the Court approved and adopted that report and
recommendation.1

We will grant the appellees’ motion and summarily affirm the District Court’s
judgment. First, as the District Court explained, Willis’s claims against Judge O’Toole

Willis filed a timely notice of appeal. The appellees have filed a motion for

fail because “[a] judicial officer in the performance of his duties has absolute immunity

summary affirmance. Willis has filed roughly 150 documents in this Court, ranging from

from suit and will not be liable for his judicial acts.” Azubuko v. Roval. 443 F.3d 302,

copies of death certificates to legal descriptions of real property to documents she filed in

303 (3d Cir. 2006) (per curiam). Although “absolute judicial immunity extends only to

the probate case.

claims for damages,” Larsen v. Senate of the Commonwealth. 152 F.3d 240, 249 (3d Cir.

We have jurisdiction under 28 U.S.C. § 1291. We exercise a plenary standard of

1998), “in any action brought against a judicial officer for an act or omission taken in

review over the dismissal order. See Fleisher v. Standard Ins. Co.. 679 F.3d 116, 120 (3d

such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory

Cir. 2012). In reviewing a dismissal under Rule 12(b)(6), “we accept all factual

decree was violated or declaratory relief was unavailable.” 42 U.S.C. § 1983. Willis has

allegations as true [and] construe the complaint in the light most favorable to the

not shown that this exception applies. See Azubuko. 443 F.3d at 303-04.

plaintiff.” Pinker v. Roche Holdings Ltd.. 292 F.3d 361, 374 n.7 (3d Cir. 2002). “To

Willis’s allegations against the clerk’s office personnel are also meritless. To the

survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted

extent that she complaints about these defendants’ conduct in applying Judge Durkin’s

as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556

order denying her right to proceed IFP by refusing to docket her unauthorized IFP filings,
“any public official acting pursuant to court directive is also immune from suit.”

l

Willis also filed a motion for reconsideration, which the District Court denied. Because
Willis did not file a new or amended notice of appeal encompassing the order denying his
motion for reconsideration, we lack jurisdiction to consider that order. See Fed. R. App.
P. 4(a)(4)(B)(ii); Carrascosa v. McGuire. 520 F.3d 249, 253-54 (3d Cir. 2008).
3

Lockhart v. Hoenstine. 411 F.2d 455,460 (3d Cir. 19691: see also Lundahl v, Zimmer.
296 F.3d 936, 939-40 (10th Cir. 2002). These defendants are also absolutely immune for
4

Case: 19-2094

Document: 175

Page: 5

Date Piled: 03/02/2020

Case: 19-2094

Document: 175

Page: 6

Date Filed: 03/02/2020

their role in helping the Court to “control its docket.” Rodriguez v. Weprin. 116 F.3d 62,

Recorder is a ministerial officer charged with recording all documents presented to him.”

66 (2d Cir. 1997). Thus, these claims are also barred. See, e.g.. Canogrosso v. Supreme

(quotation marks omitted)).

Court of N.J.. 588 F.3d 180, 185 (3d Cir. 2009); Montero v. Travis. 171 F.3d 757, 761
(2d Cir. 1999).
Moreover, even if Willis could allege some misconduct that would fall outside the

Accordingly, we will grant the appellees’ motion and summarily affirm the
District Court’s judgment. The numerous motions Willis has filed in this Court are
denied.2

clerk’s office defendants’ immunity, see generally Snyder v. Nolen. 380 F.3d 279,28889 (7th Cir. 2004), she has not stated a facially plausible claim, see Iabal. 556 U.S. at
678. While she complains about a failure to docket her filings, the state docket reveals
that she has filed numerous documents and that the state court has specifically denied her
objections to the sale of the property and her request to proceed IFP. Further, she has not
shown that she has “lost a chance to pursue a ‘nonfrivolous’ or ‘arguable’ underlying
claim.” Monroe v. Beard. 536 F.3d 198, 205 (3d Cir. 2008) (per curiam) (quoting
Christopher v. Harburv. 536 U.S. 403,415 (2005)).
Nor did the District Court err in denying Willis’s request to file a third amended
complaint. As the District Court explained, all her proposed amendments would have
been futile. She sought to add additional clerk’s office employees and Judge Durkin as
defendants, but those claims would fail for the reasons discussed above. Moreover, while
she wished to sue the recorder of deeds for recording the transferred deed
notwithstanding her (rejected) opposition to the underlying transfer, she has not shown
that she possesses a plausible claim against this defendant. See generally Chesapeake
Appalachia. LLC v. Golden. 35 A.3d 1277, 1281 (Pa. Commw. Ct. 2012) (“In short, the
5

2 In most of the motions, Willis seeks to expand the record to allow us to consider
documents filed in the District Court. As the Clerk explained to Willis in a June 20,2019
order, “any documents filed and accepted as part of the District Court record are part of
this Court’s record, so the motion is unnecessary.”
6

Case: 19-2094

Document: 176-1

Page: 1

Date Filed: 03/02/2020

Case: 19-2094

Document: 176-1

Page: 2

Date Filed: 03/02/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

This cause came to be considered on the record from the United States District
Court for the Western District of Pennsylvania and was submitted for possible summary
action pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6 on February 13, 2020. On
consideration whereof, it is now hereby

No. 19-2094

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered April 12, 2019, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.

CLD-116

LESLIE WILLIS,
Appellant
ATTEST:
v.
THE HON. LAWRENCE J. O’TOOLE, Individually, and in his Official Capacity as
Administrative Judge for the Court of Common Pleas of Allegheny County Orphans’
Court Division; TIMOTHY FINNERTY, Individually, and in his Official Capacity as
Assistant County Solicitor; MICHAEL MCGEEVER, Individually and in his Official
Capacity as Director of Allegheny County Dept, of Court Records Wills/Orphans’ Court
Division; MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually; JAMES
UZIEL, Individually and in his Official Capacity as Deputy Records for Allegheny
County Department of Real Estate; THE HON. JUDGE KATHLEEN A. DURKIN,
Individually, and in her Official Capacity for the Court of Common Pleas Orphans’ Court
Division
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-00290)
District Judge: Honorable David S. Cercone
Submitted on a Motion for Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
February 13, 2020
Before: JORDAN, KRAUSE and MATEY, Circuit Judges

JUDGMENT

s/ Patricia S. Dodszuweit
Clerk
DATED: March 2, 2020

Case: 19-2094

Document: 176-2

Page: 1

Date Filed: 03/02/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

United States Court of Appeals

TELEPHONE

CLERK

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
March 2, 2020

Case: 19-2094

Document: 176-2

Page: 2

Date Filed: 03/02/2020

Time for Filing:
14 days after entry ofjudgment.
45 days after entry ofjudgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.

Lee M. Dellecker
Office of Allegheny County
Law Department
445 Fort Pitt Boulevard
300 Fort Pitt Commons Building
Pittsburgh, PA 15219
Caroline P. Liebenguth
Supreme Court of Pennsylvania
Administrative Office of Pennsylvania Courts
1515 Market Street
Suite 1414
Philadelphia, PA 19102
Leslie Willis
P.O. Box 1153
Bowie, MD 20718

Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
A party who is entitled to costs pursuant to Fed.R.App.P. 39 must file an itemized and verified
bill of costs within 14 days from the entry of uj dgment. The bill of costs must be submitted on
the proper form which is available on the court's website.
A mandate will be issued at the appropriate time in accordance with the Fed. R. App. P. 41.

RE: Leslie Willis v. Lawrence O'Toole, et al
Case Number: 19-2094
District Court Case Number: 2-18-cv-00290

Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.

Very truly yours,

Patricia S. Dodszuweit, Clerk
ENTRY OF JUDGMENT
Today, March 02,2020 the Court entered its judgment in the above-captioned matter pursuant to
Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.

By: s/ Caitlyn
Case Manager
267-299-4956

Case: 19-2094

Document: 210

Page: 1

Date Filed: 12/02/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Case: 19-2094

Document: 210

Page: 2

Date Filed: 12/02/2020

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the

No. 19-2094

other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

LESLIE WILLIS,
Appellant
v.

THE HON. LAWRENCE J. O’TOOLE, Individually, and in his
Official Capacity as Administrative Judge for the Court of Common
Pleas of Allegheny County Orphans’ Court Division; TIMOTHY FINNERTY,
Individually, and in his Official Capacity as Assistant County Solicitor;
MICHAEL MCGEEVER, Individually and in his Official Capacity as Director
of Allegheny County Dept, of Court Records Wills/Orphans’ Court Division;
MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually;
JAMES UZIEL, Individually and in his Official Capacity as Deputy Records
for Allegheny County Department of Real Estate; THE HON. JUDGE
KATHLEEN A. DURKIN, Individually, and in her Official Capacity for the Court
of Common Pleas Orphans’ Court Division
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. No. 2-18-cv-00290)
District Judge: Hon. David S. Cercone

SUR PETITION FOR REHEARING

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Dated: December 2, 2020
CJG/cc:
Leslie Willis
Caroline P. Liebenguth, Esq.
Lee M. Dellecker, Esq.

Case: 19-2094

Document: 211

Page: 1

Date Filed: 12/02/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-2094
LESLIE WILLIS,
Appellant
v.

THE HON. LAWRENCE J. O’TOOLE, Individually, and in his
Official Capacity as Administrative Judge for the Court of Common
Pleas of Allegheny County Orphans’ Court Division; TIMOTHY FINNERTY,
Individually, and in his Official Capacity as Assistant County Solicitor;
MICHAEL MCGEEVER, Individually and in his Official Capacity as Director
of Allegheny County Dept, of Court Records Wills/Orphans’ Court Division;
MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually;
JAMES UZIEL, Individually and in his Official Capacity as Deputy Records
for Allegheny County Department of Real Estate; THE HON. JUDGE
KATHLEEN A. DURKIN, Individually, and in her Official Capacity for the Court
of Common Pleas Orphans’ Court Division
(W.D. Pa. No. 2-18-CV-00290)
Present: KRAUSE, Circuit Judge
1. Motion by Appellant for Extension of Time to File Petition for Rehearing Until
November 27, 2020
2. Supplemental Motion by Appellant for Extension of Time to File Petition for
Rehearing Until November 27, 2020, with Exhibits
Respectfully,
Clerk/CJG
_________________________ ORDER
The foregoing motions are denied as moot.
By the Court,
s/ Cheryl Ann Krause
Circuit Judge

Case: 19-2094

Document: 211

Dated: December 2, 2020
CJG/cc:
Leslie Willis
Caroline P. Liebenguth, Esq.
Lee M. Dellecker, Esq.

Page: 2

Date Filed: 12/02/2020

Case: 19-2094

Document: 212-1

Page: 1

Date Filed: 12/10/2020

Case: 19-2094

Document: 212-1

Page: 2

Date Filed: 12/10/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

This cause came to be considered on the record from the United States District
Court for the Western District of Pennsylvania and was submitted for possible summary
action pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6 on February 13, 2020. On
consideration whereof, it is now hereby

No. 19-2094

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered April 12, 2019, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.

CLD-116

LESLIE WILLIS,
Appellant
ATTEST:
v.
THE HON. LAWRENCE J. O’TOOLE, Individually, and in his Official Capacity as
Administrative Judge for the Court of Common Pleas of Allegheny County Orphans’
Court Division; TIMOTHY FINNERTY, Individually, and in his Official Capacity as
Assistant County Solicitor; MICHAEL MCGEEVER, Individually and in his Official
Capacity as Director of Allegheny County Dept, of Court Records Wills/Orphans’ Court
Division; MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually; JAMES
UZIEL, Individually and in his Official Capacity as Deputy Records for Allegheny
County Department of Real Estate; THE HON. JUDGE KATHLEEN A. DURKIN,
Individually, and in her Official Capacity for the Court of Common Pleas Orphans’ Court
Division
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-18-CV-00290)
District Judge: Honorable David S. Cercone
Submitted on a Motion for Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
February 13,2020
Before: JORDAN, KRAUSE and MATEY, Circuit Judges

JUDGMENT

s/ Patricia S. Dodszuweit
Clerk
DATED: March 2, 2020

e;'
CerpyJ
. <•. *
of- a forii^g

ale

issued in lieu
December 10, 2020

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 19-2094

Document: 212-2

Page: 1

Case: 19-2094

Date Filed: 12/10/2020

Document: 212-2

Page: 2

Date Filed: 12/10/2020

NOT PRECEDENTIAL

CLD-116

OPINION*

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
PER CURIAM
No. 19-2094

Pro se appellant Leslie Willis appeals the District Court’s order dismissing her
LESLIE WILLIS,

amended complaint and denying leave to amend. Appellees have filed a motion to
Appellant
summarily affirm. For the reasons set forth below, we will grant the motion and

v.
summarily affirm the District Court’s judgment. See 3d Cir. L.A.R. 27.4; 3d Cir. I.O.P.
THE HON. LAWRENCE J. O’TOOLE, Individually, and in his Official Capacity as
Administrative Judge for the Court of Common Pleas of Allegheny County Orphans’
Court Division; TIMOTHY FINNERTY, Individually, and in his Official Capacity as
Assistant County Solicitor; MICHAEL MCGEEVER, Individually and in his Official
Capacity as Director of Allegheny County Dept, of Court Records Wills/Orphans’ Court
Division; MELISSA DIESEL, Individually; WILLIAM TENNEY, Individually; JAMES
UZIEL, Individually and in his Official Capacity as Deputy Records for Allegheny
County Department of Real Estate; THE HON. JUDGE KATHLEEN A. DURKIN,
Individually, and in her Official Capacity for the Court of Common Pleas Orphans’ Court
Division

10.6.
This action arises out of probate proceedings involving the estate of Willis’s
deceased grandmother, Annie Pearl Willis, in the Orphan’s Court division of the
Allegheny County Court of Common Pleas. In 2014, Willis filed a motion seeking to
restrain the sale of real property belonging to the estate, which Judge Durkin denied, and
the property was sold. Willis filed dozens of other documents in the probate matter,

On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-00290)
District Judge: Honorable David S. Cercone

including several requests to proceed in forma pauperis (IFP). Judge Durkin denied those
motions both in May 2014 and in April 2016. In April 2017, Judge Durkin issued a
decree of distribution.

Submitted on a Motion for Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
February 13, 2020

In 2018, Willis filed an action under 42 U.S.C. § 1983 in District Court. In her
operative second amended complaint, she alleged that defendants—Judge O’Toole (the

Before: JORDAN, KRAUSE and MATEY, Circuit Judges
(Opinion filed: March 2, 2020)

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
2

Case: 19-2094

Document: 212-2

Page: 3

Date Filed: 12/10/2020

Case: 19-2094

Document: 212-2

Page: 4

Date Filed: 12/10/2020

Administrative Judge of the Orphans Court), and three employees of that court’s clerk’s

U.S. 662, 678 (2009) (quoting Bell Atl. Corn, v. Twomblv. 550 U.S. 544, 570 (2007)).

office—violated her right to access the court and challenge the sale of property by failing

We review the District Court’s denial of Willis’s motion for leave to amend for abuse of

to docket documents that she attempted to file IFP. She alleged that this conduct began

discretion. See City of Cambridge Ret. Svs. v. Altisource Asset Mgmt. Coro.. 908 F.3d

in July or August 2016. The defendants filed motions to dismiss. A Magistrate Judge

872, 878 (3d Cir. 2018). We will summarily affirm the District Court’s decision if it

recommended that the District Court grant those motions on the grounds that the

determines that “no substantial question is presented” by the appeal. 3d Cir. L.A.R. 27.4.

defendants were immune, and the Court approved and adopted that report and
recommendation.1

We will grant the appellees’ motion and summarily affirm the District Court’s
judgment. First, as the District Court explained, Willis’s claims against Judge O’Toole

Willis filed a timely notice of appeal. The appellees have filed a motion for

fail because “[a] judicial officer in the performance of his duties has absolute immunity

summary affirmance. Willis has filed roughly 150 documents in this Court, ranging from

from suit and will not be liable for his judicial acts.” Azubuko v, Roval. 443 F.3d 302,

copies of death certificates to legal descriptions of real property to documents she filed in

303 (3d Cir. 2006) (per curiam). Although “absolute judicial immunity extends only to

the probate case.

claims for damages,” Larsen v. Senate of the Commonwealth. 152 F.3d 240, 249 (3d Cir.

We have jurisdiction under 28 U.S.C. § 1291. We exercise a plenary standard of

1998), “in any action brought against a judicial officer for an act or omission taken in

review over the dismissal order. See Fleisher v. Standard Ins. Co.. 679 F.3d 116,120 (3d

such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory

Cir. 2012). In reviewing a dismissal under Rule 12(b)(6), “we accept all factual

decree was violated or declaratory relief was unavailable.” 42 U.S.C. § 1983. Willis has

allegations as true [and] construe the complaint in the light most favorable to the

not shown that this exception applies. See Azubuko. 443 F.3d at 303-04.

plaintiff.” Pinker v. Roche Holdings Ltd.. 292 F.3d 361, 374 n.7 (3d Cir. 2002). “To

Willis’s allegations against the clerk’s office personnel are also meritless. To the

survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted

extent that she complaints about these defendants’ conduct in applying Judge Durkin’s

as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal. 556

order denying her right to proceed IFP by refusing to docket her unauthorized IFP filings,
“any public official acting pursuant to court directive is also immune from suit.”

i

Willis also filed a motion for reconsideration, which the District Court denied. Because
Willis did not file a new or amended notice of appeal encompassing the order denying his
motion for reconsideration, we lack jurisdiction to consider that order. See Fed. R. App.
P. 4(a)(4)(B)(ii); Carrascosa v. McGuire. 520 F.3d 249,253-54 (3d Cir. 2008).
3

Lockhart v. Hoenstine. 411 F.2d 455,460 (3d Cir. 1969); see also Lundahl v. Zimmer,
296 F.3d 936,939-40 (10th Cir. 2002). These defendants are also absolutely immune for
4

Case: 19-2094

Document: 212-2

Page: 5

Date Filed: 12/10/2020

Case: 19-2094

Document: 212-2

Page: 6

Date Filed: 12/10/2020

their role in helping the Court to “control its docket.” Rodriguez v. Wenrin. 116 F.3d 62,

Recorder is a ministerial officer charged with recording all documents presented to him.”

66 (2d Cir. 1997). Thus, these claims are also barred. See. e,g„ Caoogrosso v. Supreme

(quotation marks omitted)).

Court of N.J.. 588 F.3d 180, 185 (3d Cir. 2009); Montero v. Travis. 171 F.3d 757, 761
(2d Cir. 1999).
Moreover, even if Willis could allege some misconduct that would fall outside the

Accordingly, we will grant the appellees’ motion and summarily affirm the
District Court’s judgment. The numerous motions Willis has filed in this Court are
denied.2

clerk’s office defendants’ immunity, see generally Snvder v. Nolen. 380 F.3d 279,28889 (7th Cir. 2004), she has not stated a facially plausible claim, see Iqbal. 556 U.S. at
678. While she complains about a failure to docket her filings, the state docket reveals
that she has filed numerous documents and that the state court has specifically denied her
objections to the sale of the property and her request to proceed IFP. Further, she has not
shown that she has “lost a chance to pursue a ‘nonfrivolous’ or ‘arguable’ underlying
claim.” Monroe v. Beard. 536 F.3d 198, 205 (3d Cir. 2008) (per curiam) (quoting
Christopher v. Harburv. 536 U.S. 403,415 (2005)).
Nor did the District Court err in denying Willis’s request to file a third amended
complaint. As the District Court explained, all her proposed amendments would have
been futile. She sought to add additional clerk’s office employees and Judge Durkin as
defendants, but those claims would fail for the reasons discussed above. Moreover, while
she wished to sue the recorder of deeds for recording the transferred deed
notwithstanding her (rejected) opposition to the underlying transfer, she has not shown
that she possesses a plausible claim against this defendant. See generally Chesapeake
Appalachia. LLC v. Golden. 35 A.3d 1277, 1281 (Pa. Commw. Ct. 2012) (“In short, the
5

2 In most of the motions, Willis seeks to expand the record to allow us to consider
documents filed in the District Court. As the Clerk explained to Willis in a June 20, 2019
order, “any documents filed and accepted as part of the District Court record are part of
this Court’s record, so the motion is unnecessary.”
6

Case: 19-2094

Document: 212-3

Page: 1

Date Filed: 12/10/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

United States Court of Appeals

TELEPHONE

CLERK

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
December 10, 2020

Mr. Joshua Lewis
United States District Court for the Western District of Pennsylvania
Joseph F. Weis Jr. United States Courthouse
700 Grant Street
Pittsburgh, PA 15219

RE: Leslie Willis v. Lawrence O'Toole, et al
Case Number: 19-2094
District Court Case Number: 2-18-cv-00290
Dear Mr. Lewis,
Enclosed herewith is the certified judgment together with copy of the opinion or certified copy of
the order in the above-captioned case(s). The certified judgment or order is issued in lieu of a
formal mandate and is to be treated in all respects as a mandate.
Counsel are advised of the issuance of the mandate by copy of this letter. The certified judgment
or order is also enclosed showing costs taxed, if any.

Very truly yours,
Patricia S. Dodszuweit, Clerk

By: s/ Caitlyn
Case Manager
267-299-4956
Cc:

Lee M. Dellecker
Caroline P. Liebenguth
Leslie Willis

Case: 19-2094

Document: 219

Page: 1

Date Filed: 04/22/2021

Case: 19-2094

Document: 219

Page: 2

Date Filed: 04/22/2021

IN THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
IN THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
LESLIE WILLIS,

)

CASE NO.: 19-2094
Appellant
LESLIE WILLIS,
Appellant

v.

)
)
THE HON. JUDGE KATHLEEN A. DURKIN, et. al. )

EMERGENCY MOTION TO
QUASH

)
)
)
)

v.
THE HON. LAWRENCE O’TOOLE, ET AL., i

Case No. 19-2094

)
)
)

Appellees

Appellees.
4/22/2021 7:51 PM
On appeal from the United States District Court for the Western District of Pennsylvania, Civil
Action No. 2:18-CV-00290 (The Hon. District Judge David S. Cercone)

EMERGENCY MOTION TO QUASH

EMERGENCY MOTION TO QUASH PERSUANT TO RULE 60(1>¥61

AND NOW, on this 22 April 2021, Appellant, Leslie Willis, Pro Se, files this
‘Emergency Motion Rule 60(b)(6) to Quash Order (ECF No. 210) Denying Petition for ReHearing by Panel and En Banc Court; to Quash Order Denying as Moot Motion for

/s/Leslie Willis, Appellant (Pro Se)
Send Service/Notice/Corro to:
lwillls222@vahoo.com
(No Telephone No. Available):

Extension of lime (ECFNo. 211); and to Quash Mandate Issued (ECF No. 212),’
incorporating in entirety, Appellant’s ‘Emergency Motion for Extension of Time to File Petition
for Rehearing’ (EFC No. 204) and, respectfully, states the following:

PACFile Registered; CM/ECF (Registered)1
1. Appellant is proceeding pro se and in forma pauperis in this matter.
2. On April 7,2020, Appellant filed a Motion for Extension of Time to File a Petition for
Rehearing by Panel and En Banc Court (ECF NO. 180 and ECF No. 181).3
1 RE: Ust of Appellees in the docket heading: See Appellant's Objections at ECF No. 158 and ECF No. 176 re:
Second Amended Complaint; and Appellants Objections (ECF No. 2061iV, VI, and VII (p. 7*9)) to the Report and
Recommendation (ECF No. 202).
2 Appellant Is domiciled in Maryland. However, at this time. Appellant is in Pittsburgh. Appellant will not receive
any court documents/ correspondence/Notice at the Maryland address (which is no longer current at this time).
Email is Appellant's primary means of communicating. Appellant requests Court documents or correspondence
and Notice via the Court CM/ECF electronic filing system.

1

3 The Federal law library (Pittsburgh) is still closed to the public due to Covld-19 closures. Appellant still has
fragmented, inadequate legal resources.
2

Case: 19-2094

Document: 219

Page: 3

Date Filed: 04/22/2021

Case: 19-2094

Document: 219

Page: 4

Date Filed: 04/22/2021

3. On April 21,2020, this Court entered an Order stating that, “The foregoing motion for
extension is granted through June 15,2020, subject tofurther extension upon motion of
Appellant ifnecessitated by continuing library closures. Krause, Authoring Judge.
(Emphasis Added).

WHEREFORE, Appellant, Leslie Willis, requests that this Court QUASH the December
2,2020 Orders ECF No. 210 and ECF No. 211, and ECF No. 212 and GRANT, Appellant 30days to file an Amended Petition for Re-hearing.5

4. On October 13,2020, Appellant filed an ‘Emeigency Motion for Extension of Time to

Respectfully,

File Petition for Rehearing* (EFC No. 204)./s/Leslie Willis, Appellant (Pro Se)
5. As of October 27,2020, the due date for the Petition, a decision on the ‘Emergency

Send Service/Notice/Corro to:

Motion for Extension of Time* was still pending. Therefore, Petitioner filed an

hrillis222@vahoo.com: No Tele # Avail.

incomplete Petition for Re-hearing.

CM/ECF; PACFile (Registered)

6. On December 2,2020, this Court denied Appellant’s Petition for Rehearing (ECF No.
210), and denied Appellant’s ‘Emergency Motion for Extension of Time to File Petition
for Rehearing* (EFC No. 204) as Moot.
7. Appellant Avers that the Order Denying her ‘Emergency Motion for Extension of Time to
File Petition for Rehearing’ (EFC No. 204) as Moot is manifest unreasonable judgment.
8. Appellant Avers that the Order Denying her ‘Emergency Motion for Extension of Time to
File Petition for Rehearing’ (EFC No. 204) as Moot is manifest injustice.

4 On October 13,2020, Appellant filed an 'Emergency Motion for Extension of Time' (ECF NO. 204) to file her
Petition for Rehearing by Panel and En Banc Court. On October 28,2020, Petitioner filed a Supplemental
'Emergency Extension of Time' (ECF No. 206), with Exhibits (ECF Nos. 207,208,209).

3

5 Appellant, otherwise, reserves any right to file post-judgment motions, including a motion to Void the Judgments
entered (e.g. Rule 60 (d) or other Post-judgment Motion).

4

Case: 19-2094

Document: 219

Page: 5

Date Filed: 04/22/2021

Case: 19-2094

VERIFICATION/AFFADAVIT

I, LESLIE WILLIS, CERTIFY, being duly sworn according to law, depose and say that I am
the Appellant in the foregoing ‘Emergency Motion Rule 60(b)(6) to Quash and that the facts set

Document: 219

Page: 6

Date Filed: 04/22/2021

NOTICE TO PLEAD

Respondents are hereby notified to plead to this Emergency Motion Rule 60(b)(6) to
Quash* within fourteen (14) days from service hereof or a default judgment may be entered

forth therein are true and correct to die best of my knowledge, information and belief, formed after
inquiry reasonable under the circumstances: (1) it is not being presented for any improper purpose, such

against you.

as to harass, cause unnecessary delay, or needlessly increase the cost of litigation; (2) The claims,
defenses, and other legal contentions are warranted by existing law or by a non-frivolous argument for
extending, modifying, or reversing existing law or for establishing new law; (3) The factual contentions

April 22,2021

Respectfully,

have evidentiary support or, if specifically so identified, after a reasonable opportunity for further

/s/Leslie Willis, Appellant (Pro Se)

information or discovery; and (4) the denials of factual contentions are warranted on the evidence or, if

Send Service/Notice/Corro to:

specifically so identified, are reasonably based upon belief or lack of information. 1 understand that false

lwillis222@vahoo.com

statements herein are made subject to the penalties of 18 Pa. C. S. paragraph 4904, relating to unsworn

CM/ECF; PACFile (Registered)

falsification to authorities

(No Telephone No. Available!
Respectfully,

April 22,2021

/s/Leslie Willis, Appellant (Pro Se)
Send Service/Notice/Corro to:
lwillis222@vahoo.com
CM/ECF; PACFile (Registered)
/No Telephone No. Available')

5

6

Case: 19-2094

Document: 219

Page: 7

Date Filed: 04/22/2021

Case: 19-2094

Document: 219

Page: 8

Date Filed: 04/22/2021

CERTIFICATE OF SERVICE

IN THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
I, HEREBY, CERTIFY that I, Leslie Willis, served NOTICE via U. S. Marshal, Service of Process,

LESLIE WILLIS,

)

Sheriff, First Class Mail, E-mail, Certified Mail, via CM/ECF (Pursuant to Fed. R. Civ. Proc. Rule 5 (b) (3)) a

)
)
)

Appellant

copy or courtesy copy of the ‘Emergency Motion Rule 60(b)(6) to Quash on the 22 April 2021 upon:

)
)
THE HON. JUDGE KATHLEEN A. DURKIN, et. al. )
v.

Judge Kathleen A. Durkin

Lawrence J. O’Toole
Administrative Judge

Orphans’ Court, Allegheny County

Orphans’ Court, Allegheny County

Frick Bldg. 17th Floor
437 Grant, Suite 1700

Frick Bldg. 17th Floor
437 Grant, Suite 1700

Pittsburgh, PA 15219

Pittsburgh, PA 15219

(412)350-5652

Case No. 19-2094

EMERGENCY MOTION TO
QUASH

)
)
)
)

Appellees

(412)350-5550

ORDER
Lee Dellecker (for County Respondents) (VIA CM/ECF)

Caroline P. Liebenguth6 (VIA CM/ECF)

Assistant County Solicitor (Pa. I.D. #314672)

(Attorney for the Hon. Judge Durkin; and

Allegheny County Law Department

the Hon. Judge O’Toole)

300 Fort Pitt Commons Building

Administrative Office of PA Courts (AOPC)

445 Fort Pitt Boulevard

437 Grant Street

December 2, 2020 Orders ECF No. 210 and ECF No. 211, and ECF No. 212 are QUASHED.

Pittsburgh, PA 15219

Suite 416

Appellant is GRANTED 30-days to file an Amended Petition for Re-hearing.

(412)350-1167

Pittsburgh, PA 15219-6003

AND NOW, this

day of

2020, upon consideration of Appellant, Leslie

Willis's ‘Emergency Motion Rule 60(b)(6) to Quash the Motion is, hereby, GRANTED, the

(412) 565-5032

/s/ Leslie Willis, Appellant (Pro Se)

Bv the Court

Send Service/Notice To: le8liewillis2@hotmail.com: or lwillis222@vahoo.com:
Or via Court Electronic Service
(No telephone # is available); PACFile registered; CM/ECF Registered

6 Pursuant to Fed. R. Civ. Proc. Rule 5 (b)(1): Service: How Made: (1) Serving an Attorney. If a party Is represented by an attorney, service under
this rule must be made on the attorney unless the court orders service on the party.

7

8

i
1

Case 2:18-cv-00290-DSC-LPL Document207 Filed 04/12/19 Page lot3

i

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

1

i

5;

j

LESLIE WILLIS,

i

Plaintiff,

\
3

■]

V.

■J
■i

i

i

i

1
%
I
i

■;

I
i

:!
**
;!
-•!«
I
■1

:1
i

i
J
;!

THE HON. JUDGE LAWRENCE J. O’
TOOLE, INDIVIDUALLY, AND IN HIS
OFFI CIAL CAPACITY AS
ADMINISTRATIVE JUDGE FOR THE
COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY ORPHANS'
COURT DIVISION; MICHAEL
MCCrEEVER, INDIVIDUALLY AND IN
HIS OFFICIAL CAPACITY AS DIRECTOR
OF ALLEGHENY COUNTY DEPT. OF
COURT RECORDS WILLS/ORPHANS'
COURT DIVISION; MELISSA DIESEL,
INDIVIDUALLY; AND WILLIAM
TENMEY, INDIVIDUALLY;

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

i
i

2:18-CV-00290
DISTRICT JUDGE CERCONE
MAGISTRATE JUDGE LENIHAN

\
1

ECF NOS. 139,141,158,176,178,189,190,
191,194, 195 & 202

1
i!
!
I

i
i
i
!
I
i
!

1

i1

)

1

4
i

I

1
3
1
i;

i

Defendants.

:

MEMORANDUM ORDER
This civil action was commenced on March 7, 2018 when Plaintiff Leslie Willis filed a
Motion for Leave to Proceed in Forma Pauperis. (ECF No. 1.) That motion was granted and the

i

■j

;
!
I
S

Complaint (ECF No. 3) was docketed on March 14, 2018. The case was referred to United

t

1
i

•i

1i

States Magistrate Judge Lisa Pupo Lenihan for pretrial proceedings in accordance with the

s

Mag strate Judges Act, 28 U.S.C. §636(b)(l), and Local Rules of Court 72.C and 72.D.
The Magistrate Judge's Report and Recommendation (ECF No. 202), filed on March 8,

I

2019, recommended that the Motion to Dismiss by Defendants Melissa Diesel, Timothy

?

s

rl
\
5

i
1
!
:

|

I

\

Finn;rty, Michael McGeever, William Tenney and James Uziel (ECF No. 139) be granted. It
was further recommended that the Motion to Dismiss filed by Defendant Lawrence J. OToole

i

1
1
i

!

(ECF No. 141) be granted. It was also recommended that Plaintiff Leslie Willis' Motions to

J

i

i
!
\

■

!:

i

1

!
f
<;

\

Case 2:18-cv-00290-DSC-LPL Document 207 Filed 04/12/19 Page 2 of 3

Amend (ECF Nos. 178, 194, & 195) and Motions for Joinder (ECF Nos. 189, 190, & 191) be
denied. The parties were informed that in accordance with the Magistrate Judges Act, 28 U.S.C.
§ 63 5(b)(1)(B) and (C), and Rule 72.D.2 of the Local Rules of Court, that they had fourteen (14)

f

|

\

days to file any objections. Plaintiff filed Objections to the Report and Recommendation on
April 5,2019, and Amended Objections on April 8, 2019.
After review of the pleadings and documents in the case, together with the Report and

i

!

i

Recc mmendation and Plaintiffs Objections, the following Order is entered:

1b

AND NOW, this Ji_ day of April, 2019,
IT IS HEREBY ORDERED that the Motion to Dismiss filed by Defendants Melissa

i

Dies;!, Timothy Finnerty, Michael McGeever, William Tenney and James Uziel (ECF No. 139)

!

is G1LANTED.

i

I

IT IS FURTHER ORDERED that the Motion to Dismiss filed by Defendant Lawrence

i

J. OToole (ECF No. 141) is GRANTED.
IT IS FURTHER ORDERED that Plaintiff Leslie Willis' Motions to Amend (ECF Nos.
178, 194, & 195) and Motions for Joinder (ECF Nos. 189, 190, & 191) are DENIED.
IT IS FURTHER ORDERED that the Report and Recommendation (ECF No. 202) of
Mag strate Judge Lenihan, dated March 8, 2019, is adopted as the opinion of the Court.

i

IT IS FURTHER ORDERED that this Court construes ECF No. 158 (Plaintiffs

I

Objections to Magistrate Judge Memorandum Opinion (ECF No. 144)), and ECF No. 176

ii

(Plaintiffs Objections to Magistrate Judge Order re (Amended) Objections to Magistrate Judge

'f

Memorandum Opinion (ECF No. 147) Amending ECF No. 161, Objections to non-dispositive

s

s

Mag strate Judge Order), as appeals from the Magistrate Judge’s Orders and are DISMISSED
j

AS MOOT as a consequence of this Court’s adoption of the Report and Recommendation.

l
\

2

1
I

I
!
I
!
j

i
!

!
;*
!

Case 2:18-cv-00290-DSC-LPL Document 207 Filed 04/12/19 Page 3 of 3

!

IT IS FURTHER ORDERED that the Clerk shall mark the case CLOSED.

i

!
■:

>:
i

cc:
i

i

!

David Stewart Cercone
Senior United States District Judge

;

S

Leslie Willis
P. 0. Box 1153
Bowie, MD 20718
(Via First Class Mail)
Lee M. Dellecker, Esquire
(Via CM/ECF Electronic Mail)

\
!
I
l

t
I

;

J

S
5

j
i

?
1

I

i

;
I
I
\
5

I

!5
t
1 '
;

I
i

:

1i

l
(
l

f
!!
f

j

3

;i
I
!

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
LESLIE WILLIS,
Plaintiff,
v.

THE HON. JUDGE LAWRENCE J. O'
TOOLE, INDIVIDUALLY, AND IN HIS
OFFICIAL CAPACITY AS
ADMINISTRATIVE JUDGE FOR THE
COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY ORPHANS'
COURT DIVISION; MICHAEL
MCGEEVER, INDIVIDUALLY AND IN
HIS OFFICIAL CAPACITY AS DIRECTOR
OF ALLEGHENY COUNTY DEPT. OF
COURT RECORDS WILLS/ORPHANS'
COURT DIVISION; MELISSA DIESEL,
INDIVIDUALLY; AND WILLIAM
TENNEY, INDIVIDUALLY;

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

2:18-CV-00290-DSC
MJ LENIHAN
ECF NOS. 139, 141,178,189,190,191,
194 & 195

Defendants.

REPORT AND RECOMMENDATION
I.

RECOMMENDATION
It is respectfully recommended that the Motion to Dismiss filed by Defendants Melissa

Diesel, Timothy Finnerty, Michael McGeever, William Tenney and James Uziel (ECF No. 139)
be granted. It is also recommended that the Motion to Dismiss filed by Defendant Lawrence J.
O’Toole (ECF No. 141) be granted.
It is further recommended that Plaintiffs Motions to Amend (ECF Nos. 178, 194, & 195)
and Motions for Joinder (ECF Nos. 189, 190, & 191) be denied.

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 2 of 18

II.

REPORT
A.

FACTUAL ALLEGATIONS

This civil rights action involves underlying probate proceedings opened in January 2011
involving the estate of Plaintiff Willis’ deceased grandmother in the Orphans’ Court division of
the Court of Common Pleas of Allegheny County (“estate case”). ((Amended) Amended/Second
Amended Complaint1, ECF No. 125 f 4.) The docket sheet reflects that the administration of the
estate was completed on December 20, 2017. (ECF No. 140-1 at 3.) The docket sheet further
reflects that Plaintiff has attempted to appeal the matter to the Pennsylvania Supreme Court but it
does not appear that the Supreme Court granted allocatur. (ECF No. 140-1 at 2.)
The facts and circumstances giving rise to the case at bar involve the state court’s denial
of Plaintiff s repeated demands that her in forma pauperis petitions, pleadings, and legal papers
be filed. (ECF No. 125 ^fl[ 5-6.)2 Plaintiff alleges that Defendants violated her Fourteenth
Amendment equal protection, substantive and procedural due process and First Amendment
rights in denying her a hearing on her petition for leave to proceed in forma pauperis; in denying
her access to the courts; in denying her right to appeal; and in denying her “legitimate right” of
entitlement to object to a sale of the real estate in her grandmother’s estate and to protect the title
to that real estate to avoid sale. She seeks declaratory relief in the form of a declaration that her
constitutional rights were violated by denying her a hearing on her in forma pauperis petition;
denying her access to the courts; denying her right of appeal; and denying her the right to object

1 Plaintiff has filed multiple motions to amend the Complaint, (ECF Nos. 178,194 & 195) but as will be discussed at
Part III. infra, the Court finds that Plaintiffs attempts to amend would be futile.
2 Plaintiff raises many of the same issues and claims here that she raised before this Court in Willis v. Barkman,
2:16-cv-00075-DSC-LPL. This civil action was voluntarily dismissed without prejudice after this Court issued a
Report and Recommendation recommending its dismissal. Although some of the party defendants have changed
and certain factual allegations are omitted from the case at bar, the Court reiterates many of its analyses here where
applicable.

2

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 3 of 18

to the sale of property in the estate and to protect the title of the property in issue. It is not clear
what injunctive relief she seeks.
B.

LEGAL STANDARDS

Motion to Dismiss pursuant to Federal Rule of Civil Procedure 12(W6j
Recently, the United States Court of Appeals for the Third Circuit aptly summarized the
standard to be applied in deciding motions to dismiss filed pursuant to Rule 12(b)(6):
Under the “notice pleading” standard embodied in Rule 8 of the
Federal Rules of Civil Procedure, a plaintiff must come forward
with “a short and plain statement of the claim showing that the
pleader is entitled to relief.” As explicated in Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009), a claimant must state a “plausible” claim for
relief, and “[a] claim has facial plausibility when the pleaded
factual content allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Although
“[fjactual allegations must be enough to raise a right to relief
above the speculative level,” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007), a plaintiff “need only put forth allegations
that raise a reasonable expectation that discovery will reveal
evidence of the necessary element.” Fowler[v. UPMC Shadyside,
578 F.3d [203,][] 213 [(3d Cir. 2009)] (quotation marks and
citations omitted); see also Covington v. Int'l Ass'n of Approved
Basketball Officials, 710 F.3d 114, 117-18 (3d Cir.2013).
Thompson v. Real Estate Mortg. Network, 748 F.3d 142, 147 (3d Cir. 2014).
In addition to the complaint, courts may consider matters of public record and other
matters of which a court may take judicial notice, court orders, and exhibits attached to the
complaint when adjudicating a motion to dismiss under Rule 12(b)(6). Oshiver v. Levin,
Fishbein, Sedran & Berman, 38 F.3d 1380, 1384 n.2 (3d Cir. 1994) (citing 5A Wright and
Miller, Federal Practice and Procedure: Civil 2d, § 1357; Chester Cnty. Intermediate Unit v.
Pennsylvania Blue Shield, 896 F.2d 808, 812 (3d Cir. 1990)).
Importantly, the Court must liberally construe the factual allegations of the complaint
because pleadings filed by pro se plaintiffs are held to a less stringent standard than formal
3

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 4 of 18

pleadings drafted by lawyers. Erickson v. Pardus, 551 U.S. 89, 94 (2007). Therefore, if the
Court “can reasonably read [the] pleadings to state a valid claim on which [plaintiff] could
prevail, it should do so despite failure to cite proper legal authority, confusion of legal theories,
poor syntax and sentence construction, or [plaintiffs] unfamiliarity with pleading requirements.”
Wilberger v. Ziegler, No. 08-54, 2009 WL 734728, at *3 (W.D. Pa. March 19, 2009) (citing
Boagv. MacDougall, 454 U.S. 364 (1982) (per curiam)).
C.

ANALYSIS

1. Motion to Dismiss filed by Defendants Finnerty, McGeever, Diesel, Tenney, and
Uziel
As to these Defendants, Plaintiff alleges that they violated her First and Fourteenth
Amendment rights by denying her the opportunity to object to the sale of real estate in her
grandmother’s estate case. Plaintiff further alleges that Defendants McGeever, Diesel and
Tenney, the Director of the Allegheny County Department of Court Records and court clerks
respectively, refused to docket her legal filings in the estate case between July 2016 and August
2016, and that subsequently, they also refused to docket her notices of appeal and related legal
documents. (ECF No. 125 Tflf 5-6, 9, 11-13, 15-16.)3
These Defendants are protected from suit by the doctrine, of quasi-judicial immunity.
Quasi-judicial immunity prevents Willis from suing these Defendants in their individual
capacities because the actions they took fell within their judicial-related activities. There is a

3 Per this Court’s Order of November 30,2018 (ECF No. 129), the Honorable Kathleen A. Durkin, Timothy
Finnerty, and James Uziel were terminated as party defendants when Plaintiff filed a proposed (Amended)Second
Amended Complaint indicating her intention to remove Durkin, Finnerty and Uziel as parties and to pursue her
claims against them in state court. Because Plaintiff has expressed her intention to re-add Durkin, Finnerty, and
Uziel to this civil action, the moving Defendants filed their Motion to Dismiss on behalf of Defendants Finnerty and
Uziel out of an abundance of caution. (ECF No. 140 at 2 n.l.)

4

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 5 of 18

“recognized immunity enjoyed by ... quasi[-]judicial officers.” Lockhart v. Hoenstine, 411 F.2d
455, 460 (3d Cir. 1969) (Aldisert, J.). Immunity from suit applies when:
[t]he official’s action in question involves the exercise of
discretionary judgment, Antoine v. Byers & Anderson, Inc., 508
U.S. 429, 435[—]36 (1993), performance of a function under the
direction of a judge, Waits v. McGowan, 516 F.2d 203, 205[-]06
(3d Cir. 1975), performance of a ministerial duty pursuant to a
statute, see Smith v. Rosenbaum, 460 F.2d 1019, 1020 (3d Cir.
1972), or performance of a function otherwise closely allied with
the judicial process. Waits v. McGowan, 516 F.2d 203, 206 (3d
Cir. 1975).
Grine v. Colburn’s Air Conditioning and Refrigeration, No. 09-11 Erie, 2009 WL 2634179, *9
(W.D. Pa. Aug. 25, 2009), aff'd, 382 F. App’x 203 (3d Cir. 2010).
The effect of Willis’s lawsuit is to force the Department of Court Records employees to
disobey Judge Durkin’s ruling to not waive filing fees for all documents she could submit in the
underlying dispute. Obeying judicial rulings is a function closely allied with the judicial process.
Waits, 516 F.2d at 206.

Because Willis is suing Department of Court Records employees

McGeever, Diesel, and Tenney for following Judge Durkin’s ruling by denying Willis fee-free
filing on all documents in the underlying dispute, her claims against them fail due to
quasi-judicial immunity and should be dismissed with prejudice.
As to Plaintiffs claims against any of these Defendants in their official capacities,
Plaintiffs claims must also fail.

Because official capacity claims are just another way of

pleading an action against the government entity of which the individual employees are agents,
claims against the moving Defendants in their official capacities are in essence claims against
Allegheny County. See Kentucky v. Graham, 413 U.S. 159, 165-66 (1985).
luMonell v. New York City Dep’t of SocialServs., 436 U.S. 658 (1978), the United States
Supreme Court held that municipalities and other local governmental units are “persons” subject
to liability under 42 U.S.C. § 1983. In so ruling, however, the Court declared that municipal
5

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 6 of 18

liability may not be premised on the mere fact that the governmental unit employed the
offending official, that is, through application of the doctrine of respondeat superior. Instead, the
Court concluded that a governmental unit may be liable under § 1983 only when its “policy or
custom, whether made by its lawmakers or by those whose edicts or acts may fairly be said to
represent official policy, inflicts the injury.” Monell, 436 U.S. at 694. The “official policy”
requirement distinguishes acts of the municipality from acts of employees of the municipality,
thereby limiting liability to action for which the municipality is actually responsible. Id.
In finding municipal liability pursuant to § 1983, the plaintiff must identify the policy,
custom or practice of the municipal defendant that results in the constitutional violation. Id. at
690-91. A municipal policy is made when a decision-maker issues an official proclamation or
decision. Pembaur v. City of Cincinnati, 475 U.S. 469, 481 (1986), quoted in, Andrews v. City of
Philadelphia, 895 F.2d 1469, 1480 (3d Cir. 1990). A custom or practice, however, may consist
of a course of conduct so permanent and widespread that it has the force of law. Andrews, 895
F.2d at 1480. To establish municipal liability based upon a custom or practice, the plaintiff must
demonstrate that the decision-maker had notice that a constitutional violation could occur and
that the decision-maker acted with deliberate indifference to this risk. Berg v. County of
Allegheny, 219 F.3d 261, 276 (3d Cir. 2000). Finally, Plaintiff must show a causal connection
between the custom or policy and the violation of the constitutional right. Bielevicz v. Dubinon,
915 F.2d 845, 850-51 (3d Cir. 1990). That is, a plaintiff must demonstrate an “affirmative link”
or “plausible nexus” between the custom or practice and the alleged constitutional deprivation.
Bielevicz, 915 F.2d at 850-51.
Here, taking all of Plaintiffs allegations as true and affording her every favorable
inference as the Court must on a motion to dismiss, Plaintiff is unable to allege a custom or

6

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 7 of 18

practice of Allegheny County in refusing to file documents of pro se litigants. Plaintiff only
alleges that Judge Durkin/Judge O’Toole failed to grant her petitions for in forma pauperis
status, and that as a result, court employees, in adhering to that Order, refused to docket her
pleadings and other submissions. Therefore, it is respectfully recommended that Plaintiffs
claims against these moving Defendants in their official capacities be dismissed.
2. Motion to Dismiss filed by Defendant O’Toole
Defendant O’Toole, Administrative Judge of the Allegheny County Court of Common
Pleas, Orphans Court Division, moves to dismiss Plaintiffs claims on the basis of Eleventh
Amendment and absolute judicial immunity. Plaintiff alleges that Judge O’Toole failed to
docket and adjudicate various pleadings she filed or attempted to file, including an in forma
pauperis petition. The Court must dismiss the claims against O’Toole in his official and
individual capacities.
The claims against Judge O’Toole in his official capacity are barred by the Eleventh
Amendment to the United States Constitution. A suit against an official in his official capacity
is, in fact, a suit against the entity of which an officer is an agent. Kentucky v. Graham, 473 U.S.
159, 166 (1985). The Eleventh Amendment bars civil rights suits against a state in federal court
by private parties where the state has not consented to such action. Laskaris v. Thornburgh, 661
F.2d 23, 25 (3d Cir. 1981) (citing Alabama v. Pugh, 438 U.S. 781 (1978)). This immunity
applies even to claims seeking injunctive relief. Laskaris, 661 F.2d at 25; Pennhurst State Sch.
& Hosp. v. Halderman, 465 U.S. 89, 100 (1984) (holding Eleventh Amendment immunity
applies “regardless of the nature of the relief sought.”) (citation omitted). Pennsylvania, by
statute, has specifically withheld consent to suit in federal court. 42 Pa. Cons. Stat. Ann. §
8521(b); Laskaris, 661 F.2d at 25. Pennsylvania’s Eleventh Amendment immunity extends to

7

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 8 of 18

suits against “arms of the state,” i.e., departments or agencies of the state having no existence
separate from the state. Laskaris, 661 F.2d at 25 (citing Mt. Healthy City Bd. ofEduc. v. Doyle,
429 U.S. 274, 280 (1977)). This immunity also extends to the court of common pleas. Under
Pennsylvania law, the term “Commonwealth government” includes the “courts and other officers
or agencies of the unified judicial system,.... 42 Pa. Cons. Stat. Ann. § 102. See also
Callahan v. City ofPhiladelphia, 207 F.3d 668, 673 (3d Cir. 2000) (“All courts and agencies of
the unified judicial system .. . are part of‘Commonwealth government’ and thus are state rather
than local agencies.”) (citations omitted). Accordingly, the court of common pleas and its
departments are entitled to Eleventh Amendment immunity. See Haybarger v. Lawrence Cnty.
Adult Probation and Parole, 551 F.3d 193, 198 (3d Cir. 2008) (citations omitted).
Moreover, the Supreme Court has determined that Congress did not intend for § 1983 to
overcome the sovereign immunity of states embodied in the Eleventh Amendment. Will v. Mich.
Dep’t ofState Police, 491 U.S. 58, 66-67 (1989). Therefore, states, as well as entities of the
state, such as the Fifth Judicial District is not a “person” who can be subject to liability under §
1983. Id. at 71. As such, Judge O’Toole is protected by Eleventh Amendment immunity, and
therefore, this Court lacks subject matter jurisdiction over this Defendant.
Plaintiff attempts to invoke the doctrine of Ex Parte Young, 209 U.S. 123, 159-60 (1908),
in order to state a claim against Judge O’Toole in his official capacity by alleging that her
request for injunctive relief is prospective to enjoin an ongoing violation of federal law. The
doctrine is inapplicable here. Plaintiff alleges that Defendant O’Toole failed or refused to docket
her in forma pauperis petitions and pleadings pursuant to 231 Pa. Code, Rule 240 (c) (1) (i).
That is, she alleges that Defendant violated state law, and as a consequence, her federal
constitutional rights were violated. Ex Parte Young is inapplicable where a plaintiff claims a

8

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 9 of 18

violation of state law. Pennhurst v. State Sch. and Hosp. v. Halderman, 465 U.S. 89, 106 (1984)
(“[I]t is difficult to think of a greater intrusion on state sovereignty than when a federal court
instructs state officials on how to conform their conduct to state law[.]”). Therefore, the doctrine
of Ex Parte Young is inapplicable here, and Plaintiffs claims against Judge O’Toole are barred
by the Eleventh Amendment.
The claims against Judge O’Toole in his individual capacity are barred by absolute
judicial immunity. Under that doctrine, a judicial officer has absolute immunity from suit for
actions taken in his or her judicial capacity. See Mireles v. Waco, 502 U.S. 9, 12 (1991);
Azubuko v. Royal, 443 F.3d 302, 303 (3d Cir. 2006) (citing Mireles, 502 U.S. at 12). Whether a
judicial official has acted in his or her judicial capacity in any particular case is a functional
inquiry. See Forrester v. White, 484 U.S. 219, 227 (1988) (“[IJmmunity is justified and defined
by the functions it protects and serves, not by the person to whom it attaches.”). Thus, a judge is
not afforded judicial immunity for those actions the judge has taken in an administrative or
executive capacity. See, e.g., Forrester, 484 U.S. at 229-30 (holding that a state court judge’s
act of demoting a probation officer was done in his administrative capacity, and thus, the judge
was not immune from suit); Supreme Court ofVa. v. Consumers Union of the United States, 446
U.S. 719, 736-37 (1980) (holding that “immunity does not shield the Virginia Court and its chief
justice from suit” when the judge was acting as a prosecutor to enforce the bar code).
When a judge acts in his or her judicial capacity, as opposed to an executive or
administrative capacity, he or she is entitled to absolute immunity from damage claims even
when his or her action was erroneous, done maliciously, or exceeded his or her authority. Stump
v. Sparkman, 435 U.S. 349, 356-57 (1978). It is only when an action, while judicial in nature,
was pursued in “complete absence of all jurisdiction” that a judge will not be entitled to absolute

9

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 10 of 18

immunity. Mireles, 502 U.S. at 12 (citing Stump, 435 U.S. at 356—57); Gallas v. Supreme Court
of Pa., 211 F.3d 760, 768 (3d Cir. 2000). This is an especially stringent standard, as it is
generally held that, in light of the broad judicial immunity afforded to judges, “where a court has
some subject matter jurisdiction, there is sufficient jurisdiction for immunity purposes.”
Figueroa v. Blackburn, 208 F.3d 435, 443^14 (3d Cir. 2000) (citing Barnes v. Winchell, 105
F.3d 1111, 1122 (6th Cir. 1997)).
Here, Judge O’Toole’s actions all fall within his judicial capacity. Plaintiff alleges that
her claims relate to the underlying action involving her grandmother’s estate in the Allegheny
County Court of Common Pleas, Orphans Court Division. Therefore, he is protected by judicial
immunity even if his rulings were in error or in excess of authority because his orders (or failure
to issue orders) were issued with appropriate jurisdiction and in his judicial capacity. Judge
O’Toole’s alleged failure to docket and adjudicate certain pleadings fall within the scope of his
judicial duties. Plaintiffs claims against Judge O’Toole in his individual capacity are barred by
absolute judicial immunity.
Generally, a plaintiff cannot successfully request injunctive relief when suing a judge.
The Federal Courts Improvement Act of 1996 (FCIA) extends the reach of judicial immunity to
injunctive relief as well as to damages. That is “injunctive relief shall not be granted” in an
action brought against “a judicial officer for an act or omission taken in such officer’s judicial
capacity . . . unless a declaratory decree was violated or declaratory relief was unavailable.” 42
U.S.C. § 1983; Azubuko, 443 F.3d at 304.

After the issuance of this Court’s Report and

Recommendation in Willis v. Barkman, Civil Action No. 16-75, Plaintiff seizes upon the phrase
“declaratory relief was unavailable”4 in support of her argument that injunctive relief against the

4 In her proposed (Amended) Third Amended Complaint, Plaintiff states that “declaratory relief is/may be
unavailable in the state [c]ourt.” (ECF No. 195 ^ 3 n.3.)

10

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 11 of 18

judicial officers in this case is appropriate. Plaintiff alleges no facts to support this assertion and
the underlying docket sheet reflects no efforts to obtain declaratory relief. Nor has Plaintiff
alleged facts to suggest that she is likely to suffer future injury as a result of actions of a named
defendant. As noted above, Plaintiff seeks a declaration that Judge O’Toole previously violated
her rights. This is not the proper use of a declaratory judgment, which is meant to define the
legal rights and obligations of the named defendants in anticipation of future conduct, not to
proclaim their liability for past actions. Corliss v. O’Brien, 200 F. App’x 80, 84-85 (3d Cir.
2006); see e.g., Utah Animal Rights Coal. v. Salt Lake City Corp., 371 F.3d 1248, 1266 (10th Cir.
2004), cited in, O’Callaghan v. Hon. X, 661 F. App’x 179, 182 (3d Cir. 2016). Therefore,
Plaintiff s claims for injunctive and declaratory relief must be dismissed with prejudice.
3. Futility of Amendment (Motions to Amend—ECF Nos. 178, 194 & 195)
Plaintiff seeks leave of Court to amend her Complaint for a third time (ECF No. 178) to
re-add Defendants Uziel, Durkin, and Finnerty.5 She also seeks to add Patricia Capozoli, whom
she identifies as a Division Manager in the Allegheny County Court of Common Pleas,
Department of Court Records, Wills/Orphans’ Court Division, in her individual capacity.
(Proposed (Amended)Third Amended Complaint, ECF No. 195 f 6 n. 18.) Finally, Plaintiff
seeks to amend her Complaint by adding a conspiracy claim against the defendants named in the
proposed (Amended)Third Amended Complaint alleging that they conspired/collaborated to
deny Plaintiffs constitutional rights. (ECF No. 195 Iff 30-33.)
The court must permit amendment by a § 1983 civil rights plaintiff before dismissing a
complaint pursuant to Rule 12(b)(6), even if not requested, unless doing so would be
“inequitable or futile.” Fletcher-Harlee Corp. v. Pote Concrete Contractors, Inc., 482 F.3d 247,
5 It also appears that Plaintiff attempts to use Federal Rules of Civil Procedure 19 & 20 relating to joinder to include
these Defendants in her current civil action. See ECF Nos. 189, 190, & 191.

11

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 12 of 18

251 (3d Cir. 2007); see also Alston v. Parker, 363 F.3d 229, 235 (3d Cir. 2004) (asserting that
where a complaint is vulnerable to dismissal pursuant to 12(b)(6), the district court must offer the
opportunity to amend unless it would be inequitable or futile). The Court is cognizant of these
holdings, but finds that allowing Plaintiff to amend would be futile. A careful review of the
record commands that Plaintiff, even gamering all the liberalities that accompany her pro se
status, fails to state any claims under § 1983 for which relief may be granted.
a. Finnerty
Plaintiff identifies Timothy Finnerty as Assistant County Solicitor for the Allegheny
County Department of Court Records Wills/Orphans’ Court Division. In her most recent version
of her proposed amended complaint (ECF No. 195), Plaintiff alleges that Finnerty refused to
docket Petitioner’s in forma pauperis petitions, pleadings and other legal papers in the estate
case. (ECF No. 195 U 6.)
As discussed at Section II.C.l., supra, Finnerty is protected by quasi-judicial immunity
for these alleged acts.
Therefore, it is respectfully recommended that Plaintiffs motions to amend (ECF Nos.
178, 194 & 195) and motion for joinder (ECF No. 190) as they relate to Defendant Finnerty be
denied.
b. Durkin
As discussed at Part H.C.2., supra, relating to Judge O’Toole, Willis’ 42 U.S.C. § 1983
claims against Judge Durkin are likewise barred by Eleventh Amendment and absolute judicial
immunity.
Here, Plaintiffs allegations relating to Judge Durkin fall under her judicial capacity. In
her proposed (Amended) Third Amended Complaint, Willis alleges that Judge Durkin failed to

12

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 13 of 18

adjudicate/hold hearings on Willis’ in forma pauperis petitions and pleadings. (ECF No. 195
29-31.) The decisions to deny in forma pauperis status and to not have hearings are all within
the purview of a judge’s judicial capacity. Even if Judge Durkin’s decisions were in error, she is
absolutely immune from Willis’ individual capacity claims because the decisions Willis
complains of were within Judge Durkin’s judicial capacity. Stump, 435 U.S. at 356-57 (1978).
Judge Durkin’s actions were also not taken in the “complete absence of all jurisdiction.”
At all relevant times, Judge Durkin was a judge in the Orphans’ Court division of the Allegheny
County Court. The Allegheny County Court is a court of general jurisdiction. See 42 Pa. Cons.
Stat. Ann. § 931(a) (“the courts of common pleas shall have unlimited original jurisdiction of
all actions and proceedings, including all actions and proceedings heretofore cognizable by law
or usage in the courts of common pleas”). Where, as here, a court has subject matter jurisdiction
over a matter in some way, that court generally has jurisdiction sufficient for immunity purposes.
Figueroa v. Blackburn, 208 F.3d 435, 443-44 (3d Cir. 2000) (citing Barnes v. Winchell, 105
F.3d 1111, 1122 (6th Cir. 1997)).

Judge Durkin had subject matter jurisdiction over the

underlying dispute, which Plaintiff characterized as a probate matter disposing of her
grandmother’s estate. Judge Durkin thus acted within the Allegheny County Court’s jurisdiction.
Willis’s request for injunctive and declaratory relief to counter Judge Durkin’s actions
also fails for the same reasons relating to Judge O’Toole at Part H.C.2., supra. Likewise, any
attempt to sue Judge Durkin in her official capacity is precluded by Eleventh Amendment
immunity.
Consequently, the Court finds that any attempt to amend and re-add Plaintiffs claims
against Durkin would be futile.

Therefore, it is respectfully recommended that Plaintiffs

13

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 14 of 18

Motions to Amend (ECF Nos. 178, 194 & 195) and Motion for Joinder (ECF No. 189) as they
relate to Durkin be denied.

7

c. Uziel
Willis’ factual averments do not state a Fourteenth Amendment claim for which relief
can be granted against Defendant Uziel, an employee of the Department of Real Estate. Under
Pennsylvania law, Uziel is required by statute to record deeds as they are presented to him:
All deeds, conveyances, contracts, and other instruments of writing
wherein it shall be the intention of the parties executing the same
to grant, bargain, sell, and convey any lands, tenements, or
hereditaments situate in this Commonwealth, upon being
acknowledged by the parties executing the same or proved in the
manner provided by the laws of this Commonwealth, shall be
recorded in the office for the recording of deeds in the county
where such lands, tenements, and hereditaments are situate ....
21 Pa. Cons. Stat. § 351 (emphasis added). The United States District Court for the Middle
District of Pennsylvania further described the duty of a recorder of deeds (and, by extension,
employees of the Department of Real Estate):
[T]he Recorder is a ministerial officer charged with recording all
documents presented to him. The only situations in which a
Recorder may refuse to record a document presented to him are
where the appropriate fee is not paid, where the document is not of
the type that is statutorily entitled to recording . . . and where the
document on its face lacks a proper acknowledgement. The
Recorder is truly just a custodian of documents.
Woodward v. Bowers, 630 F. Supp. 1205, 1207 (M.D. Pa. 1986) (emphasis omitted) (internal
quotation marks omitted).
Despite the obvious implication from both case and statutory law that employees in the
Department of Real Estate must record all documents received complying with the requirements
to record, Willis claims that Uziel knew that there was no order authorizing the sale of real estate
associated with the underlying dispute but allowed deeds to be arbitrarily recorded in a sale of
14

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 15 of 18

real estate in the estate to a third party. (ECF No. 195

20-21.) But according to the law, even

if Uziel knew that there was no order from the Orphans’ Court to sell real estate in the
underlying dispute, it is not his job to prevent that sale from occurring. 21 Pa. Cons. Stat. §
351; Woodward, 630 F. Supp. at 1207.
Willis also appears to confuse the effect of recording a deed with transferring an interest
in property. “Delivery [of a deed] is all that is necessary to pass title [in real property], recording
is only essential to protect by constructive notice any subsequent purchasers, mortgagees and
new judgment creditors.” Malamedv. Sedelsky, 80 A.2d 853, 856 (Pa. 1951) (citation omitted).
By recording a deed for real estate in the underlying dispute, Uziel did not change the owner of
that property. Uziel’s act of recording the deed alters none of Willis’ legal rights to the real
estate in the underlying dispute, and thus, could not have deprived her of procedural and
substantive due process rights related to that property. Based on Willis’ factual averments,
Uziel’s job duties, and the legal effect of Uziel’s actions, Willis is unable to state a claim against
Uziel for which relief can be granted. And it would be futile to allow Willis to amend her
complaint in an attempt to state a Fourteenth Amendment claim against Uziel, since recording a
deed does not alter Willis’ legal right to the real estate in the underlying dispute. Consequently,
the Court finds that any attempt to amend and re-add Plaintiffs claims against Uziel would be
futile. Therefore, it is respectfully recommended that Plaintiffs Motions to Amend (ECF Nos.
178, 194 & 195) and Motion for Joinder (ECF No. 191) as they relate to Defendant Uziel be
denied.
d. Patricia Capozoli and Hugh Mulvey
In her Motions to Amend, Plaintiff attempts to add Patricia Capozoli and Hugh Mulvey
to her Complaint. See ECF Nos. 194 & 195. In her latest version of the proposed “(Amended)

15

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 16 of 18

Third Amended Complaint,” Plaintiff identifies Capozoli as a Division Manager in the
Allegheny County Court of Common Pleas, Department of Court Records, Will/Orphans’ Court
Division. (ECF No. 195 U 6 n.18.) Plaintiff alleges that Capozoli refused to docket Plaintiffs in
forma pauperis petitions, pleadings, and legal papers. (ECF No. 195

6.)

Plaintiff identifies Hugh Mulvey as a motions clerk for the Allegheny County Court of
Common Pleas, Orphans’ Court Division. (ECF No. 195 f 3 n.4.) Plaintiff alleges that Mulvey
failed to docket Plaintiffs in forma pauperis petitions, pleadings, and legal papers. (ECF No.
195 24.)
As discussed at Section II.C.l., supra, these individuals are protected by quasi-judicial
immunity. Therefore, it is respectfully recommended that Plaintiffs Motions to Amend (ECF
Nos. 178, 194 & 195) as they relate to these individuals should be denied.
e. Conspiracy
Finally, it appears that Plaintiff seeks to add a claim for conspiracy against the named
defendants in her proposed (Amended) Third Amended Complaint. (ECF No. 195

30-33.)

In order to state a claim for conspiracy, Plaintiff is required to show “‘a combination of
two or more persons to do a criminal act, or to do a lawful act by unlawful means or for an
unlawful purpose.’” Panayotides v. Rabenold, 35 F. Supp. 2d 411, 419 (E.D. Pa. 1999) (quoting
Hammond v. Creative Fin. Planning, 800 F. Supp. 1244, 1248 (E.D. Pa. 1992)). See also
Spencer v. Steinman, 968 F. Supp. 1011, 1020 (E.D. Pa. 1997) (citing Ammlung v. City of
Chester, 494 F.2d 811, 814 (3d Cir. 1974)). A conspiracy claim requires specific allegations
“which are particularized, such as those addressing the period of the conspiracy, the object of the
conspiracy, and certain other action of the alleged conspirators taken to achieve that purpose.”
Panayotides, 35 F. Supp. 2d at 419 (citations omitted). “It is not enough that the end result of

16

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 17 of 18

the parties’ independent conduct caused plaintiff harm or even that the alleged perpetrators of the
harm acted in conscious parallelism.” Spencer, 968 F. Supp. at 1020. Rather, there must be a
showing that the alleged conspirators “directed themselves toward an unconstitutional action by
virtue of a mutual understanding or agreement.” Chicarelli v. Plymouth Garden Apartments, 551
F. Supp. 532, 539 (E.D. Pa. 1982) (citing Tarkowski v. Bartlett Realty Co., 644 F.2d 1204 (7th
Cir. 1980)). The United States Court of Appeals for the Third Circuit has made clear that in light
of Twombly and its progeny, there must be ‘“enough factual matter (taken as true) to suggest that
an agreement was made,’ in other words, ‘plausible grounds to infer an agreement.’” Great
Western Mining & Mineral Co. v. Fox Rothschild LLP, 615 F.3d 159, 178 (3d Cir. 2010)
(quoting Twombly, 550 U.S. at 556). The facts alleged must raise “a suggestion of a preceding
agreement, not merely parallel conduct that could just as well be independent action.” Twombly,
550 U.S. at 557.
Here, while Plaintiff appears to allege conspiratorial or collaborative conduct among
Defendants, claiming that they acted in concert at various times and at various locations in
order to prevent the adjudication and docketing of her in forma pauperis petitions, pleadings,
and other legal papers, her averments are pure speculation and do not amount to sufficient facts
from which this Court could infer conspiracy. Plaintiff does not direct the Court to facts that
suggest a preceding agreement. Instead, the proposed (Amended) Third Amended Complaint
offers only that Defendants were engaged in their respective duties as court employees or
judicial officials. Plaintiffs alleged conspiracy is based only on sheer possibility or
speculation. See Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at 556-57). Therefore, it is
respectfully recommended that Plaintiffs Motions to Amend (ECF Nos. 178, 194 & 195) as
they relate to the addition of a conspiracy claim should be denied.

17

Case 2:18-cv-00290-DSC-LPL Document 202 Filed 03/08/19 Page 18 of 18

III.

CONCLUSION
For the above reasons, it is respectfully recommended that the Motion to Dismiss filed by

Defendants Melissa Diesel, Timothy Finnerty, Michael McGeever, William Tenney and James
Uziel (ECF No. 139) be granted. It is also recommended that the Motion to Dismiss filed by
Defendant Lawrence J. O’Toole (ECF No. 141) be granted.
It is further recommended that Plaintiffs Motions to Amend (ECF Nos. 178, 194, & 195)
and Motions for Joinder (ECF Nos. 189, 190, & 191) be denied.
In accordance with the Magistrate Judges Act, 28 U.S.C. § 636(b)(1)(B) and (C), and
Rule 72.D.2 of the Local Rules of Court, the parties are allowed fourteen (14) days from the date
of service of a copy of this Report and Recommendation to file objections. Any party opposing
the objections shall have fourteen (14) days from the date of service of objections to respond
thereto. Failure to file timely objections will constitute a waiver of any appellate rights.

Dated: March 8, 2019

BY THE COURT

s/ Lisa Pupo Lenihan
LISA PUPO LENIHAN
United States Magistrate Judge

18

